Office of Evaluations
Report No. EVAL-11-003


Evaluation of the FDIC’s Economic
Analysis of Three Rulemakings to
Implement Provisions of the Dodd-Frank
Act




                                 June 2011
                                      Executive Summary
                                      Evaluation of the FDIC’s Economic Analysis of
                                      Three Rulemakings to Implement Provisions of
                                      the Dodd-Frank Act
                                                                                      Report No. EVAL-11-003
                                                                                                   June 2011

Why We Did The Evaluation
In a May 4, 2011 letter, 10 minority members (Members) of the U.S. Senate Committee on Banking,
Housing, and Urban Affairs expressed concern that regulatory agencies are conducting rulemakings to
implement specific provisions of the Dodd-Frank Wall Street Reform and Consumer Protection Act
(Dodd-Frank Act) without adequately considering the costs and benefits of their rules and the effects
those rules could have on the economy. The letter requested that our office prepare a report describing
the economic analysis that the FDIC performed for three proposed rules associated with the Dodd-Frank
Act. The Members also asked other financial agency Inspectors General to initiate a review of the
economic analyses performed by their respective agencies for specific rulemakings.

The primary objective of this evaluation is to address the issues included in the request. In this regard,
our report describes:

1. Any statutory or other requirements for the FDIC to perform economic analysis associated with
   rulemaking efforts;
2. Any internal policies, procedures, and guidance used to ensure rigor and consistency in the economic
   analysis of proposed rules;
3. The degree to which key staff involved in the three rulemaking efforts understood and followed
   statutory and agency requirements to perform economic analysis;
4. The degree to which the FDIC complied with economic analysis requirements for the three
   rulemaking efforts;
5. Any discretionary economic analysis that the FDIC undertakes voluntarily or on an ad hoc basis to
   ensure efficient and effective rulemaking;
6. The qualifications of staff who conducted economic analysis for the three rulemaking efforts; and
7. The economic analysis performed by the FDIC for three specific rulemaking efforts, including the
   quantitative and qualitative methods used, extent of consideration of alternative approaches, extent of
   public input requested by the FDIC, and transparency of the FDIC’s economic analysis.

Additionally, the Members asked us to describe other rulemaking steps that would be required if the
FDIC were subject to Executive Order 13563, Improving Regulation and Regulatory Review
(January 18, 2011); Executive Order 12866, Regulatory Planning and Review, (October 4, 1993); and
Office of Management and Budget (OMB) Circular A-4, Regulatory Analysis, (September 17, 2003).

Finally, the Members asked us to describe to what extent the FDIC is considering the cumulative burden
of all Dodd-Frank Act rulemakings on market participants and the economy.


Background
The stated aim of the Dodd-Frank Act is to promote the financial stability of the United States by
improving accountability and transparency in the financial system, to end “too big to fail,” to protect the
American taxpayer by ending bailouts, to protect consumers from abusive financial services practices,
and for other purposes. Under the Act, the FDIC is required or authorized to implement some
44 regulations, including 18 independent and 26 joint rulemakings. Within the FDIC, each rulemaking
effort is an interdivisional project that brings together personnel from the Legal Division, including the
Executive Secretary’s Section which is involved in all rulemakings, and the appropriate functional



                                  To view the full report, go to www.fdicig.gov
                                     Evaluation of the FDIC’s Economic Analysis of
   Executive Summary
                                     Three Rulemakings to Implement Provisions of
                                     the Dodd-Frank Act
                                                                                   Report No. EVAL-11-003
                                                                                                June 2011

division such as the Division of Risk Management Supervision (RMS), Division of Resolutions and
Receiverships (DRR), and the Division of Insurance and Research (DIR). Subject matter experts within
RMS, DRR, and DIR perform the economic analysis and draft the technical portions of the proposed
rules. Attorneys from the Legal Division assist in drafting rulemakings and ensure compliance with
statutory and regulatory provisions. Attorneys from the Executive Secretary’s Section review statutory
rulemaking requirements and assist in drafting rulemakings for purposes of compliance with the
Paperwork Reduction Act (PRA), Congressional Review Act, and the Administrative Procedure Act
(APA).


Evaluation Results
The FDIC is subject to the APA and other statutes that impose rulemaking requirements on the
Corporation. The Regulatory Flexibility Act (RFA) and the PRA, in particular, include requirements for
economic analysis of the impact a rule has on small businesses and the burden a rule has on information
collection, respectively. The Small Business Regulatory Enforcement Fairness Act of 1996 also requires
the FDIC to conduct cost benefit analyses of final rules.

As an independent agency, the FDIC is not required to follow Executive Orders 13563 and 12866 or
OMB Circular A-4. However, the FDIC has issued a Statement of Policy on the Development and Review
of FDIC Regulations and Policies, No. 5157 (1998) (Policy Statement) that establishes basic principles
and guidance for the FDIC’s rulemaking efforts. The Policy Statement generally addresses the spirit of,
and principles found in, the two executive orders and OMB guidance. The FDIC has also drafted
procedural guidance in the form of a Paper on the Development and Review of FDIC Rules and
Statements of Policy (December 19, 2006) (Paper) that provides procedural guidance for the rulemaking
process and provides specific guidance for economic analysis under the RFA and PRA.

Rulemaking at the FDIC is a collaborative process, with subject matter experts from the business line
divisions (such as RMS) conducting the technical and economic analysis and attorneys from the Legal
Division assisting in drafting the rule and ensuring compliance with statutory and regulatory provisions.
Based on interviews with FDIC personnel and review of relevant documents, we determined that the
FDIC officials who drafted the proposed rules referenced by the Members were highly qualified and
experienced subject matter experts with respect to the underlying subject of the proposed rules. We also
confirmed that the key staff involved in the rulemakings understood and followed the statutory and FDIC
requirements related to rulemaking and economic analysis. Notably, FDIC officials expressed that it was
a duty of the FDIC as an insurer and a safety and soundness regulator to ensure that the Corporation
carefully considered how all aspects of rulemaking efforts individually and collectively affected
depository institutions, the financial industry, and the broader economy.

With respect to the three rulemaking efforts referenced by the Members, all three were joint rulemakings
among the FDIC and other Federal agencies. Each proposed rule implemented a specific congressional
mandate in the Dodd-Frank Act legislation and, thus, the FDIC’s consideration of alternatives or cost and
benefit factors was limited by those statutory requirements. We found that for each proposed rule, FDIC
staff: worked jointly with other financial regulatory agencies to ensure a coordinated rulemaking effort;
performed quantitative analysis of relevant data; considered alternative approaches to the extent allowed
by the legislation; requested comment from the public on numerous facets of the rules; and, where
applicable, included information about the analysis that was conducted and assumptions that were used in



                                 To view the full report, go to www.fdicig.gov
                                    Evaluation of the FDIC’s Economic Analysis of
   Executive Summary
                                    Three Rulemakings to Implement Provisions of
                                    the Dodd-Frank Act
                                                                                 Report No. EVAL-11-003
                                                                                              June 2011

the text of the proposed rule. Each proposed rule was also considered by the FDIC Board of Directors in
open, public meetings.

The FDIC is also considering the cumulative burden of all Dodd-Frank Act rulemakings, and, among
other things, has established a broad-based Dodd-Frank Act working group that includes the Chairman.
The working group discusses and evaluates the interrelationship of all Dodd-Frank Act rulemakings and
their impact on existing FDIC rules.



Management Response

We provided a draft of this report to the FDIC on June 6, 2011. The FDIC provided technical accuracy
comments in response to the draft report, and we made changes to the report where appropriate. The
FDIC Chairman’s office advised us that the Chairman had no other comments. The FDIC was not
required to provide a written response because the report contained no recommendations.




                                To view the full report, go to www.fdicig.gov
                               TABLE OF CONTENTS


EVALUATION OBJECTIVE                                                                  1

BACKGROUND                                                                            2

EVALUATION RESULTS                                                                    3
   Statutory or Other Requirements for the FDIC to Perform Economic Analysis          3
   Associated with Rulemaking Efforts
   Internal Policies, Procedures, and Guidance Used to Ensure Rigor and Consistency   7
   in the Economic Analysis of Proposed Rules
   The Degree to Which Key Staff Involved in the Three Rulemaking Efforts             8
   Understood and Followed Statutory and Agency Requirements to Perform
   Economic Analysis
   The Degree to Which the FDIC Complied with Economic Analysis Requirements          8
   for the Three Rulemaking Efforts
   Any Discretionary Economic Analysis that the FDIC Undertakes Voluntarily or on     9
   an Ad Hoc Basis to Ensure Efficient and Effective Rulemaking
   The Qualifications of Staff Who Conducted Economic Analysis for the Three          10
   Rulemaking Efforts
   The Economic Analysis Performed by the FDIC for the Three Rulemaking Efforts       10
      Credit Risk Retention                                                           10
      Margin and Capital Requirements for Covered Swap Entities                       14
      Risk-Based Capital Standards: Advanced Capital Adequacy Framework –             16
      Basel II; Establishment of a Risk-Based Capital Floor
   Comparison of Executive Orders 13563 and 12866 and OMB Guidance to the             17
   FDIC’s Approach
   FDIC Consideration of the Cumulative Burden of All Dodd-Frank Act                  19
   Rulemakings on Market Participants and the Economy
MANAGEMENT RESPONSE                                                                   20

APPENDIX I: Objective, Scope, and Methodology                                         21
                        ACRONYMS IN THE REPORT


APA       Administrative Procedure Act
CFTC      U.S. Commodity Futures Trading Commission
DIR       Division of Insurance and Research
DRR       Division of Resolutions and Receiverships
FDI Act   Federal Deposit Insurance Act
FDIC      Federal Deposit Insurance Corporation
FFIEC     Federal Financial Institutions Examination Council
FHFA      Federal Housing Finance Agency
FRB       Board of Governors of the Federal Reserve System
GSE       Government Sponsored Entities
ISDA      International Swap Dealers Association
OCC       Office of the Comptroller of the Currency
OMB       Office of Management and Budget
PRA       Paperwork Reduction Act
QRM       Qualified Residential Mortgage
RFA       Regulatory Flexibility Act
RMS       Division of Risk Management Supervision
SBA       Small Business Administration
SBREFA    Small Business Regulatory Enforcement Fairness Act of 1996
SEC       Securities and Exchange Commission
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                               Office of Inspector General




DATE:                                     June 13, 2011

MEMORANDUM TO:                            Sheila C. Bair
                                          Chairman


                                          /Signed/
FROM:                                     Jon T. Rymer
                                          Inspector General

SUBJECT:                                  Evaluation of the FDIC’s Economic Analysis of Three
                                          Rulemakings to Implement Provisions of the Dodd-Frank Act
                                          (Report No. EVAL-11-003)

In a May 4, 2011 letter, 10 minority members (Members) of the U.S. Senate Committee on
Banking, Housing, and Urban Affairs expressed concern that regulatory agencies are conducting
rulemakings to implement specific provisions of the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Dodd-Frank Act) without adequately considering the costs and
benefits of their rules and the effects those rules could have on the economy. In particular, the
letter requested that our office prepare a report describing the economic analysis that the FDIC
performed for three proposed rules: (1) Credit Risk Retention, 76 Fed. Reg. 83, 24090
(April 29, 2011); (2) Margin and Capital Requirements for Covered Swap Entities, 76 Fed. Reg.
91, 27564 (May 11, 2011); and (3) Risk-Based Capital Standards: Advanced Capital Adequacy
Framework – Basel II; Establishment of a Risk-Based Capital Floor, 75 Fed. Reg. 250, 82317
(December 30, 2010).

The Members also asked the Inspectors General from the Board of Governors of the Federal
Reserve System (FRB), Commodity Futures Trading Commission (CFTC), Department of the
Treasury (Treasury), and Securities and Exchange Commission (SEC) to initiate a review of the
economic analyses performed by their respective agencies for specific rulemakings.

EVALUATION OBJECTIVE

The primary objective of this evaluation is to address the issues included in the request. In this
regard, our report describes:

1. Any statutory or other requirements for the FDIC to perform economic analysis associated
   with rulemaking efforts;
2. Any internal policies, procedures, and guidance used to ensure rigor and consistency in the
   economic analysis of proposed rules;
3. The degree to which key staff involved in the three rulemaking efforts understood and
   followed statutory and agency requirements to perform economic analysis;
4. The degree to which the FDIC complied with economic analysis requirements for the three
   rulemaking efforts;

                                                              1
5. Any discretionary economic analysis that the FDIC undertakes voluntarily or on an ad hoc
   basis to ensure efficient and effective rulemaking;
6. The qualifications of staff who conducted economic analysis for the three rulemaking efforts;
   and
7. The economic analysis performed by the FDIC for the three rulemaking efforts, including the
   quantitative and qualitative methods used, extent of consideration of alternative approaches,
   extent of public input requested by the FDIC, and transparency of the FDIC’s economic
   analysis.

Additionally, the Members asked us to describe other rulemaking steps that would be required if
the FDIC were subject to Executive Order 13563, Improving Regulation and Regulatory Review
(January 18, 2011); Executive Order 12866, Regulatory Planning and Review,
(October 4, 1993); and Office of Management and Budget (OMB) Circular A-4, Regulatory
Analysis, (September 17, 2003).

Finally, the Members asked us to describe to what extent the FDIC is considering the cumulative
burden of all Dodd-Frank Act rulemakings on market participants and the economy.

Our evaluation work focused on determining the requirements, policy, and FDIC actions
associated with the three rulemakings in order to describe them in this report. Given the
reporting time frames requested by the Members, we did not perform evaluation procedures
designed to support recommendations. Appendix I presents additional information on our
objective, scope, and methodology.

BACKGROUND

The stated aim of the Dodd-Frank Act is to promote the financial stability of the United States by
improving accountability and transparency in the financial system, to end ‘too big to fail,’ to
protect the American taxpayer by ending bailouts, to protect consumers from abusive financial
services practices, and for other purposes. Under the Dodd-Frank Act, the FDIC is required or
authorized to implement some 44 regulations, including 18 independent and 26 joint
rulemakings. The Congressional Research Service Report for Congress on Rulemaking
Requirements and Authorities in the Dodd-Frank Wall Street Reform and Consumer Protection
Act (November 3, 2010) reported that the Dodd-Frank Act does not impose additional
procedures, requirements, and controls to guide and oversee the rulemaking process for agencies
other than each agencies’ standard rulemaking authority.

Within the FDIC, each rulemaking effort is an interdivisional project that brings together
personnel from the Legal Division, including the Executive Secretary’s Section which is
involved in all rulemakings, and the appropriate functional division such as the Division of Risk
Management Supervision (RMS), Division of Resolutions and Receiverships (DRR), and the
Division of Insurance and Research (DIR). Subject matter experts within RMS, DRR, and DIR
perform the economic analysis and draft the technical portions of the proposed rules. Attorneys
from the Legal Division assist in drafting rulemakings and ensure compliance with statutory and
regulatory provisions. Attorneys from the Executive Secretary’s Section review statutory
rulemaking requirements and assist in drafting rulemakings for purposes of compliance with the
Paperwork Reduction Act (PRA), Congressional Review Act, and the Administrative Procedure
Act (APA).
                                                2
EVALUATION RESULTS

The FDIC is subject to certain statutes and FDIC policies that establish the basic principles that
guide the FDIC in its economic analysis of rulemakings. As an independent agency, the FDIC is
not subject to Executive Orders 13563 and 12866 or OMB Circular A-4. However, FDIC
policies and practices generally address the spirit of, and principles found in, these orders and
guidance. For the three rulemakings referenced by the Members, we found that the FDIC
assigned highly qualified subject matter experts to develop the technical aspects of the proposed
rules and to conduct economic analysis, where appropriate. We confirmed that these experts
were knowledgeable of, and followed the applicable statutory and FDIC requirements related to,
rulemaking and economic analysis. For each of the three rules, the FDIC worked jointly with
other financial regulatory agencies; performed analysis of relevant data as required; considered
alternative approaches to the extent allowed by the legislation; requested comments from the
public; and, where appropriate, presented information supporting agency analysis and
conclusions in the proposed rule. The FDIC is also considering the cumulative burden of all
Dodd-Frank Act rulemakings and, among other things, has established a broad-based working
group to evaluate the interrelationships of all Dodd-Frank rulemaking efforts.

Statutory or Other Requirements for the FDIC to Perform Economic Analysis Associated
with Rulemaking Efforts

The FDIC is subject to the rulemaking requirements of the statutes described below. The
Regulatory Flexibility Act (RFA) and the PRA, in particular, include requirements for economic
analysis of the impact a rule has on small business and review of the paperwork burden that may
be imposed by each rule, respectively. The Small Business Regulatory Enforcement Fairness
Act of 1996 (SBREFA) also requires the FDIC to conduct a cost benefit analysis of final rules to
determine whether they should be considered major rules under the Act. Further, a rulemaking
prerequisite for the FDIC is the Federal Deposit Insurance Act (FDI Act) requirement that the
FDIC Board of Directors approve each rulemaking prior to publication in the Federal Register.
FDIC Board meetings to consider various rulemakings are announced in advance to the public,
meetings are open to the public, and videos of meetings are available on the FDIC public Web
site.

           Administrative Procedure Act and Related Laws

           The APA1 defines rulemaking as the agency process for formulating, amending, or
           repealing a rule, and defines a rule as the whole or part of an agency statement of general
           or particular applicability and future effect designed to implement, interpret, or prescribe
           law or policy or describing the organization, procedure, or practice requirements of an
           agency. Formal rulemaking under the APA requires an agency hearing process, while
           informal rulemaking involves public notice and comment. Most FDIC rules are
           promulgated through the informal rulemaking process. Section 553 of the APA requires
           the publication in the Federal Register of most rules, and a period for public comment.

           Rulemaking under the APA must comply with the following minimum procedural
           requirements:
1
    5 U.S.C. §551 et. seq.

                                                    3
          1. Unless a good-cause exception applies, a notice of proposed rulemaking must be
             published in the Federal Register that includes a statement of the time, place, and
             nature of the public rulemaking proceedings; a reference to the legal authority under
             which the rule is proposed; and either the terms or a description of the subjects and
             issues to be addressed by the proposed rule;
          2. interested persons must be given an opportunity to submit written data, views, or
             arguments on the proposal, with or without opportunity for oral presentation;
          3. a concise general statement of the basis and purpose must accompany the final rule;
             and
          4. subject to certain exceptions, publication of the final rule must take place not less
             than 30 days before its effective date.

          Regulatory Flexibility Act

          Pursuant to the RFA,2 whenever an agency is required to publish a general notice of
          proposed rulemaking for any proposed rule, the agency must also prepare and make
          available for public comment an initial regulatory flexibility analysis. The RFA requires
          agencies to analyze the economic impact of proposed regulations when there is likely to
          be a significant economic impact on a substantial number of small entities, and to
          consider regulatory alternatives that will minimize burden while achieving the agency’s
          goal. Agencies are required to prepare initial and final regulatory flexibility analyses
          when promulgating a proposed or final rule, unless the agency head can certify that the
          final rule will not have a significant impact on a substantial number of small entities. The
          Small Business Administration (SBA) is responsible for administering the RFA and has
          defined ”small entities” for banking purposes as a bank or savings association with
          $175 million or less in assets.3

          When required, the initial regulatory flexibility analysis describes the impact of the
          proposed rule on small entities; the reasons why action by the agency is being considered;
          the objectives of, and legal basis for, the proposed rule; the number of small entities to
          which the proposed rule will apply; the projected reporting, recordkeeping, and other
          compliance requirements of the proposed rule; and all relevant Federal rules that may
          duplicate, overlap, or conflict with the proposed rule. Each initial regulatory flexibility
          analysis also contains a description of any significant alternatives to the proposed rule
          that accomplish the stated objectives of applicable statutes and that minimize any
          significant economic impact of the proposed rule on small entities.

          In addition, in accordance with the RFA, the FDIC publishes a semiannual agenda of
          regulations in process to inform the public of its regulatory actions and to enhance public
          participation in the rulemaking process.




2
    5 U.S.C. §601-612.
3
    13 CFR 121.201.

                                                   4
           Paperwork Reduction Act

           The PRA4 was enacted to minimize the paperwork burden for individuals; small
           businesses; educational and nonprofit institutions; Federal contractors; State, local and
           tribal governments; and other persons resulting from the collection of information by or
           for the Federal Government. The PRA requires that agencies, with respect to general
           information resources management, manage information resources to reduce information
           collection burdens on the public; increase program efficiency and effectiveness; and
           improve the integrity, quality, and utility of information to all users within and outside
           the agency.

           The PRA defines a collection of information as the obtaining, causing to be obtained,
           soliciting, or requiring the disclosure to third parties or the public, of facts or opinions by
           or for an agency, regardless of form or format, which calls for answers to identical
           questions posed to or imposing recordkeeping requirements on 10 or more people. Under
           the PRA, an agency must establish a process for the review and collection of information
           and the control of paperwork, and receive approval for proposed collections of
           information from OMB before conducting or sponsoring a collection of information.

           For a proposed rulemaking that involves a collection of information or changes an
           existing collection, the FDIC publishes an estimate of the paperwork burden and requests
           public comments on, for example, the accuracy of the estimates of the burden of the
           information collection (including of the validity of the methodology and the assumptions
           used), the necessity of the information collection for the proper performance of the
           FDIC's functions, and ways to enhance the quality or utility of the information to be
           collected. FDIC staff reviews the comments received from the public and OMB on the
           proposed rulemaking and determines what changes, if any, should be made to the
           proposed information collection in the final rule in response to the comments. If a
           rulemaking involves a PRA collection of information, the PRA requires publication of a
           notice in the Federal Register stating that the agency has made a submission to OMB
           seeking approval of the proposed collection. The proposed collection of information may
           not be conducted unless the agency has received prior approval from OMB of the
           collection or the collection has been inferred and received a control number from OMB.

           Section 722 of the Gramm-Leach-Bliley Act of 1999

           Section 722 of the Gramm-Leach-Bliley Act of 19995 imposes a plain language
           requirement for federal banking agency rules. The Act states that each federal banking
           agency, as defined by Section 3 of the Federal Deposit Insurance Act, must use plain
           language in all proposed and final rulemakings published by the agency in the Federal
           Register after January 1, 2000.




4
    44 U.S.C. §3501 et seq.
5
    12 U.S.C. §4809.

                                                     5
         Section 302 of the Riegle Community Development and Regulatory Improvement
         Act of 1994

         Section 302 of the Riegle Community Development and Regulatory Improvement Act6
         requires federal banking agencies to consider, in determining the effective date and
         administrative compliance requirements for new regulations that impose additional
         reporting, disclosure, or other requirements on insured depository institutions, any
         administrative burdens that such regulations would place on depository institutions,
         including small depository institutions and customers of depository institutions, and the
         benefits of such regulations.

         New regulations and amendments to regulations prescribed by a federal banking agency
         that impose additional reporting, disclosures, or other new requirements on insured
         depository institutions shall take effect on the first day of a calendar quarter that begins
         on or after the date on which the regulations are published in final form, unless the
         agency determines, for good cause published with the regulation, that the regulation
         should become effective before such time.

         The Small Business Regulatory Enforcement Fairness Act

         SBREFA amended the RFA to provide additional tools to aid small businesses in gaining
         regulatory fairness.7 SBREFA requirements apply to final rules and therefore do not
         apply to the three Dodd-Frank Act rulemaking efforts included in the Members’ request.
         Section 212 of SBREFA requires Federal agencies to issue compliance guides for each
         rule or group of related rules for which an agency is required to prepare a final regulatory
         flexibility analysis under section 5 U.S.C. 605(b). The publication of the guide must take
         place the same day the rule is published (or as soon as possible after that date), be
         accompanied by the posting of the guide in an easily identified location on the Web site
         of the agency; and be distributed to known industry contacts, such as small entities,
         associations, or industry leaders affected by the rule. SBREFA also provides a procedure
         by which agency rules are reviewed by Congress. The Congressional Review Act,8 a part
         of SBREFA, allows Congress to review every new federal regulation issued by the
         government agencies and, by passage of a joint resolution, overrule a regulation. All
         covered rules, as defined by the APA,9 must be submitted to Congress and the
         Comptroller General before they become effective, and all major rules10 may not become
         effective until 60 days after submission.

6
  12 U.S.C. §4802(b).
7
  SBREFA amendments of the RFA included ensuring judicial review of agency compliance with some of the
RFA’s provisions; additional requirements for detailed and substantive regulatory flexibility analyses; and inclusion
of small entities in the development of rules by the Occupational Safety and Health Administration and the
Environmental Protection Agency.
8
  5 U.S.C. §801 et. seq.
9
  The APA defines a rule as the whole or a part of an agency statement of general or particular applicability and
future effect designed to implement, interpret, or prescribe law or policy.
10
   A major rule is defined in SBREFA as being any final rule that the Administrator of the SBA Office of
Information and Regulatory Affairs finds has resulted in or is likely to result in (1) an annual effect on the economy
of $100 million or more; (2) a major increase in costs or prices for consumers, industries, governments, or
geographic regions; or (3) significant adverse effects on competition and the economy.

                                                          6
        SBREFA’s reporting requirement occurs when the FDIC is issuing a final rule as defined
        by the APA. Before a final rule can take effect, the FDIC must publish the rule in the
        Federal Register, as well as submit reports to Congress and the Comptroller General that
        include a copy of the rule; a general statement of the rule; a determination of whether it is
        a major rule; and the proposed effective date of the rule. Additionally, the FDIC must
        submit to the Comptroller General and Congress a complete copy of the cost-benefit
        analysis of the final rule; the agency actions under the RFA; and any other relevant
        requirements from statutory, regulatory, or Presidential sources.

        Federal Deposit Insurance Act – Approval by the FDIC Board of Directors (FDIC
        Board)

        The FDI Act11 authorizes the FDIC, through its Board of Directors, to prescribe such
        rules and regulations as it may deem necessary to carry out the FDI Act or any other law
        it has the responsibility of administering or enforcing. To fulfill its duty under the FDI
        Act, the FDIC Board, whose members include the FDIC Chairman, Vice Chairman, an
        internal Director, the Comptroller of the Currency, and the Director of the Office of
        Thrift Supervision, must approve every rule proposed by the FDIC whether on its own or
        through a joint rulemaking.12 For each new rule, a memorandum is presented to the
        FDIC Board that includes a description of the proposed rule, the reasons for the rule, and
        important points and issues that would be helpful for the FDIC Board to consider in
        rendering a decision. FDIC Board meetings for the consideration of new rulemakings are
        open to the public and, pursuant to the Government in the Sunshine Act,13 an advance
        notice is provided of the meeting dates and agenda. Further, a video of more recent FDIC
        Board meetings is available on the FDIC public Web site.14 In addition to the
        memorandum, an FDIC Board Resolution is drafted to document the FDIC Board’s
        findings regarding the rule and directs that the rule be published in the Federal Register.

Internal Policies, Procedures, and Guidance Used to Ensure Rigor and Consistency in the
Economic Analysis of Proposed Rules

The FDIC Board issued a Statement of Policy on the Development and Review of FDIC
Regulations and Policies, No. 5157 (1998)15 (Policy Statement) that establishes the basic
principles that guide the FDIC’s issuance and review of regulations and written statements of
policy. The Policy Statement includes broad economic analysis principles that focus on
minimizing the burden a regulation imposes on the banking industry and the public; determining
the need for a regulation; the effect of a regulation on competition within the financial industry,
with specific emphasis on smaller institutions and whether there are alternatives to accomplish
the FDIC’s goal that would minimize any burden on small institutions; and a weighing of the
potential cost and benefits of the regulation. Further, the Policy Statement includes a
requirement to carefully analyze any new reporting and recordkeeping requirements.
Additionally, the Policy Statement recognizes that the FDIC frequently must implement statutory
11
   12 U.S.C. 1811 et seq.
12
    The Dodd-Frank Act changed the composition of the FDIC Board by replacing the OTS Director with the
Director of the Consumer Financial Protection Bureau.
13
   5 U.S.C. § 552b.
14
   Open Board meeting from November 5, 2007 to the present have video.
15
   63 Fed. Reg. 25157 (1998).

                                                      7
provisions with other financial institution regulators and states that the FDIC will work with
other regulators to ensure regulations are made in a uniform way. Finally, the Policy Statement
provides that the FDIC should draft regulations that are clearly and understandably written; the
public should have a meaningful opportunity to participate in the rulemaking process;
rulemakings should be carried out in accordance with the APA; and regulations should be
periodically reviewed.

The Legal Division drafted a Paper on the Development and Review of FDIC Rules and
Statements of Policy (December 19, 2006) (Paper) that discusses general steps and key issues to
consider once a decision is made to develop a rule or statement of policy. The Paper describes
each statutory requirement for FDIC rulemaking and provides specific guidance for economic
analysis under RFA and PRA. Further, the Paper refers to the SBA’s, A Guide for Government
Agencies – How to Comply with the Regulatory Flexibility Act, for guidance on economic
analysis. Additionally, the Paper describes the information to include when presenting a
rulemaking to the FDIC Board for approval. The Paper also presents the steps required to
develop a rule, including the preparation of a memorandum to the FDIC Board for its
consideration.

Finally, the Legal Division has a checklist it uses to ensure regulatory analysis requirements are
completed for the statutes noted above. The checklist indicates whether a statute is applicable to
a proposed or final rule and the party responsible for ensuring compliance.

The Degree to Which Key Staff Involved in the Three Rulemaking Efforts Understood and
Followed Statutory and Agency Requirements to Perform Economic Analysis

The key FDIC staff involved in the three rulemaking efforts are subject matter experts with
respect to the issues covered by the proposed rules, and they were assisted in complying with
statutory and agency requirements by attorneys from the Legal Division and the Executive
Secretary’s Section. All key FDIC staff involved in the rulemakings had an understanding of the
statutory and agency requirements for economic analysis and followed those requirements.
Additionally, FDIC personnel involved in the rulemakings expressed that it was a duty of the
FDIC as an insurer and safety and soundness regulator to ensure that the FDIC carefully
considered how all aspects of particular rules individually and collectively affected the banks it
insures, the financial industry, and the broader economy. Specific analysis of each rulemaking
effort is described more fully below.

The Degree to Which the FDIC Complied with Economic Analysis Requirements for the
Three Rulemaking Efforts

As mentioned above, the FDIC is subject to statutory economic analysis requirements under the
RFA and PRA. The RFA requires agencies to analyze the economic impact of proposed
regulations when there is likely to be a significant economic impact on a substantial number of
small businesses, and to consider regulatory alternatives that will minimize burden while
achieving the agency’s goal. Under the PRA, an agency must establish a process for the review
and collection of information and the control of paperwork, and receive approval for proposed
collections of information from OMB before conducting or sponsoring a collection of
information.

                                                8
Based on interviews with FDIC personnel and review of documents provided, the FDIC included
RFA analysis in each proposed rule and determined the impact of the proposed rules on insured
institutions. With respect to the Credit Risk Retention rule and the Risk-Based Capital rule, the
FDIC reviewed Call Report data and concluded that the rules will not result in a significant
economic impact on a substantial number of entities. For the Swap rule, the FDIC published an
initial regulatory flexibility analysis and requested comments on the analysis. The impact of the
Swap rule in terms of the RFA is dependent on the number of uncleared swap transactions that
will be entered into after the rule is made final, and that number could not be determined with a
level of certainty at this point in time. The FDIC will issue a final RFA analysis once the agency
reviews comments on the proposed rule.

With respect to the PRA, the FDIC prepared the PRA analysis required for the OMB Supporting
Statement submission for the Credit Risk Retention and Swap proposed rules. It determined,
however, that the Risk-Based Capital proposed rule will have no impact on reporting frequency
or response time and therefore did not require a PRA analysis.

Based on a review of FDIC Board minutes, memoranda submitted to the FDIC Board, and FDIC
Board Resolutions, all three rulemakings were reviewed and approved by the FDIC Board prior
to publication.

Any Discretionary Economic Analysis that the FDIC Undertakes Voluntarily or on an Ad
Hoc Basis to Ensure Efficient and Effective Rulemaking

As mentioned previously, the Policy Statement covering rulemaking establishes the basic
principles that guide the FDIC’s issuance and review of regulations and written statements of
policy. The Policy Statement includes broad economic analysis principles that focus on
minimizing the burden a regulation imposes on the banking industry and the public; determining
the need for a regulation; determining the effect of a regulation on competition within the
financial industry, with specific emphasis on smaller institutions and whether there are
alternatives to accomplish the FDIC’s goal that would minimize any burden on small
institutions; and weighing the potential cost and benefits of the regulation.

The Policy Statement is not prescriptive in terms of the analysis that must be performed in order
to comply with its principles because the nature of analysis required depends on the particular
rulemaking. In complying with the Policy Statement, each rulemaking team – which is
comprised of subject matter experts – determines the appropriate type of analysis needed, taking
into consideration any analysis prescribed by Congress and the legislative history of an
authorizing statute. An example of analysis prescribed by Congress is Section 941(e)(4)(B) of
the Dodd-Frank Act (the Credit Risk Retention rule). In that section, Congress specifically
requested that in developing regulations to define Qualified Residential Mortgages (QRM) that
would be exempt from the statute, the Federal banking agencies shall consider underwriting and
product features that historical loan performance data indicate result in a lower risk of default.
Section 941(e)(4)(B) goes on to list possible underwriting criteria that fit such a low risk
definition.

At other times, a statute is less prescriptive, and rulemaking teams determine, based on the nature
of the rule and any legislative history, the appropriate analysis to perform in order to evaluate the
impact of a particular rulemaking.
                                                 9
The Qualifications of Staff Who Conducted Economic Analysis for the Three Rulemaking
Efforts

FDIC staff members who performed and reviewed economic analysis with respect to the three
Dodd-Frank Act rulemaking efforts are considered subject matter experts for the underlying
subject of each rule. Specifically, for the Credit Risk Retention rule, the staff member has been
with the FDIC for over 25 years; holds a degree in accounting, finance, and business; and is the
FDIC subject matter expert for nontraditional mortgage loans, subprime mortgage lending, loan
modifications, appraisal issues, commercial real estate loan workouts, and small business
lending. For the Swap proposed rule, economic analysis was performed by (1) an FDIC Senior
Capital Markets Specialist who holds a PhD in economics and (2) the director of the RMS
Capital Markets Branch Policy Section, who is an accountant and FDIC staff lead for regulations
related to regulatory capital and capital markets activities. Finally, for the Risk-Based Capital
rule, the FDIC staff member is an economist who heads the RMS Capital Markets Branch.

The Economic Analysis Performed by the FDIC for the Three Rulemaking Efforts

The three rulemaking efforts discussed in detail below were all joint rulemakings among the
FDIC and other Federal agencies. Each proposed rulemaking effort implements a specific
Congressional mandate in the Dodd-Frank Act; thus, the FDIC’s consideration of alternatives or
cost and benefit factors was limited by those statutory requirements. According to FDIC
analysis of the three proposed rules, it is likely that the three proposed rules will have a limited
impact on FDIC-supervised institutions, but they may impact FDIC-insured institutions.

   Credit Risk Retention, 76 Fed. Reg. 83, 24090 (April 29, 2011).

       Brief summary of the proposed rule and rulemaking efforts. In general, the Credit
       Risk Retention proposed rule implements the credit risk retention requirements of section
       15G of the Securities and Exchange Act, as added by section 941 of the Dodd-Frank Act
       and is designed to address problems experienced during the financial crisis with respect
       to the securitization of mortgages and other assets where securitizations were sold with
       little or no credit risk borne by participants in the securitization chain. The proposed rule
       generally would require sponsors of asset-backed securities to retain at least 5 percent of
       the credit risk of the assets underlying the securities and would not permit sponsors to
       transfer or hedge that credit risk.

       The Credit Risk Retention proposed rule was a joint rulemaking of the FDIC, Office of
       the Comptroller of the Currency (OCC), FRB, SEC, Federal Housing Finance Agency
       (FHFA), and Department of Housing and Urban Development (HUD). The Secretary of
       the Treasury, as Chairperson of the Financial Stability Oversight Council, coordinated the
       development of the joint proposed rule. As such, the Department of the Treasury
       facilitated the development of an interagency working group comprised of subject matter
       experts from each agency. The agencies analyzed the requirements of section 941 and
       their potential impact on consumers, investors, and financial institutions in drafting the
       proposed rule. The interagency working group assigned specific analytical tasks to
       smaller interagency subgroups based on a particular agency’s data and the special
       expertise of agency members. The small interagency subgroups provided their analysis
                                                 10
and findings to the larger interagency working group, and each interagency working
group member reviewed the underlying analysis and findings. All aspects of the
proposed rulemaking were developed collectively by the agency members of the
interagency working group.

The quantitative and qualitative methods used. Broadly, the FDIC, as a member of
the interagency working group, performed quantitative analysis of data to understand the
breadth and scope of securitizations that could be affected by the proposed rule as well as
each technical aspect of the rulemaking. For example, quantitative analysis included
reviewing the following datasets in order to fulfill the section 941 mandate of the
Dodd-Frank Act to determine which underwriting criteria and product features result in
lower risk of default:

(1) mortgage performance data supplied by Lender Processing Services, which included
    data for prime, fixed-rate loan originations from 2005 to 2008;
(2) data from the 1992 to 2007 triennial Survey of Consumer Finances; and
(3) loans purchased or securitized by the Government Sponsored Entities (GSEs).

Moreover, the proposed rule includes supplementary information that shows in detail the
effects the proposed rule would have had if it were imposed on loans purchased and
secured by the GSEs from 1997-2009.

With respect to administrative law matters such as RFA and PRA, the FDIC performed
quantitative analysis under the RFA using September 30, 2010 Call Report information to
determine that six small banking organizations that sponsor securitizations may be
affected by the proposed rule. Thus, the FDIC concluded that the proposed rule would
not have a significant economic impact on the 4,779 FDIC-supervised institutions, a
substantial number of which are small, state nonmember banks. Additionally, the FDIC
reviewed Call Report data to determine the burdens on insured institutions under the
PRA. The FDIC considered the burden in hours related to disclosures and recordkeeping
that the proposed rule would require and estimated an annual hourly burden for
participating securitization sponsors and creditors.

Finally, the SEC, in coordination with the FDIC and the other agencies involved in the
rulemaking, prepared an economic analysis of the proposed rule as required by section
23(a)(2) of the Securities Exchange Act of 1934 (Exchange Act), as amended.
Specifically, the Exchange Act requires that the SEC, when making rules under the
Exchange Act, consider the impact that the rules would have on competition and
prohibits the SEC from adopting any rule that would impose a burden on competition not
necessary or appropriate in furtherance of the Exchange Act. FDIC personnel told us
they reviewed the analysis and data underlying the SEC’s work and made comments that
were incorporated by the SEC. The SEC economic analysis concentrated on the costs
and benefits of the decisions with respect to areas where the agencies were permitted
discretion to fulfill the mandate of Section 941 of the Dodd-Frank Act. The SEC analysis
concluded that the menu of options provided in the proposed rule for permissible forms
of risk retention would have no competitive effects and would implement the risk
retention mandate without causing economic inefficiencies or hindering capital
formation.
                                        11
        The FDIC, as a member of the interagency working group, also reviewed qualitative
        information such as government, private sector, and academic studies of various aspects
        of securitizations to understand, among other things, how credit risk exposure is
        maintained for securitized assets as well as the minimum standards for loans that have
        low credit risk. For example, the FDIC reviewed the FRB’s Report to the Congress on
        Risk Retention (October 2010) to understand options for retaining credit risk. The FDIC
        also reviewed information from the Journal of Real Estate Finance and Economics’
        Explicit Test of Contingent Claims Models of Mortgage Default (1995) to understand the
        importance of loan-to-value ratio at origination as an underwriting factor for low
        credit-risk loans.

        Extent of consideration of alternative approaches. The FDIC, as a member of the
        interagency working group, reviewed numerous alternative means to fulfill the mandate
        of section 941 of the Dodd-Frank Act. For example, the proposed rule offers multiple
        ways for sponsors or other entities to retain risk for securitized assets. The alternatives
        are based on historical market practices as well as the diversity of assets that are
        securitized. Additionally, the FDIC, in conjunction with the other agencies determined
        that based on the quantitative and qualitative analysis discussed above, certain
        underwriting criterion would not be included in the proposed rule because underlying
        data did not adequately demonstrate that mortgages with such criterion were less likely to
        default. For example, after reviewing reports and information concerning the
        performance of loans with mortgage guarantee insurance, the agencies were unable to
        support that having such insurance would reduce a borrower’s default risk.

        The agencies also considered an alternative approach to implementing the exemption for
        QRMs by creating a broader definition of a QRM that includes a wider range of
        mortgages of potentially lower credit quality, and that increases the risk retention
        requirements for non-QRM mortgages. As a result, within this alternative approach, the
        standards to qualify as a QRM would be more liberal. This alternative approach was
        presented for public consideration and comment.

        Extent of public input requested by the FDIC. The FDIC, in conjunction with the
        other agencies, is requesting significant input from the public with respect to the
        proposed rule. The rulemaking includes approximately 174 requests for comment, a
        significant number of which request information concerning the cost benefit or economic
        impact of both broad and narrow aspects of the proposed rule. While the comment period
        is open to the public for 42 days according to the date it was published in the Federal
        Register, the proposal was publicly available on March 29, 2011, which resulted in a
        comment period of 73 days.16 The agencies have agreed to extend the comment period to
        August 1, 2011, in response to requests for an extension to allow the industry and the
        public more time to analyze the proposal and provide meaningful comment on its
        potential impact. The FDIC and other agencies are expecting thousands of comments
        and, according to the Policy Statement, those comments will be made publicly available
        on the FDIC Web site and considered by the FDIC and the other agencies as they
        determine the requirements of the final rule.

16
  FDIC comment periods are rarely shorter than 30 days or longer than 120 days. Sixty days is the most common
comment period.

                                                      12
Additionally, as noted in the Policy Statement, any person or organization may petition
the FDIC Board for the issuance, amendment, or repeal of any regulation or policy by
submitting a written petition to the Executive Secretary of the FDIC. The FDIC Board
has authority to take such action under the broad powers of the FDI Act. Petitions are
generally reviewed by FDIC legal and subject matter personnel, and a recommendation is
made to the FDIC Board. The final decision rests with the FDIC Board.

Finally, the FDIC also initiated an Open Door Policy for Regulatory Reform Rulemaking
that goes beyond what is required under the APA. Key elements of the Open Door
Policy include roundtable discussions with external parties concerning implementation
issues; a bi-weekly release of the names and affiliations of private-sector individuals who
meet with senior FDIC officials to discuss how the FDIC should interpret or implement
provisions of the Dodd-Frank Act that are subject to independent or joint rulemaking; a
dedicated public mailbox to encourage public input with the content and applicability of
the input posted to the FDIC Web site; the ability of members of the public to request a
meeting with FDIC staff on implementation issues; and Webcasts of all open FDIC
Board meetings.

The transparency of the FDIC’s economic analysis. We used the definition of
transparency contained in OMB Circular A-4 (September 17, 2003) to define transparent
economic analysis to include disclosure with respect to studies conducted, assumptions
used, and implications of plausible alternative assumptions, so that a qualified third party
could clearly see how the agency arrived at its estimates and conclusions. The preamble
to the proposed rule lays out in substantial detail the data and studies that the FDIC, in
conjunction with the other agencies, relied on to determine how best to fulfill the
mandate under section 941 of the Dodd-Frank Act, including the agencies’ rationale for
their decisions based on the data reviewed and why the agencies included or disregarded
possible rulemaking criteria. For example, in describing the overall approach to defining
QRMs that are exempt from the provisions of section 941, the agencies presented their
overall approach and defined and described each dataset that was evaluated to determine
whether a mortgage is of sufficient credit quality. Further, for each underwriting
criterion used to define a QRM, the agencies provided summary data and their rationale
for including or excluding the criterion.

Additionally, as mentioned above, the preamble includes an economic analysis of the
proposed rule as required by section 23(a)(2) of the Exchange Act, as amended. The
SEC economic analysis concentrates on the costs and benefits of the decisions with
respect to areas where the agencies were permitted discretion to fulfill the mandate of
section 941 of the Dodd-Frank Act.

In addition to the preamble, the proposed rulemaking was considered by the FDIC Board
in an open meeting on March 29, 2011. The memorandum presented to the FDIC Board,
a copy of the proposed rule, as well as a video of the Board proceedings are available on
the FDIC public Web site. The FDIC Board video documents the rationale for the
proposed rulemaking and discusses some of the economic analysis considered in the
rulemaking.



                                         13
Margin and Capital Requirements for Covered Swap Entities, 76 Fed. Reg. 91, 27564
(May 11, 2011).

   Brief summary of rule and rulemaking efforts. The Swap proposed rule implements
   sections 731 and 764 of the Dodd-Frank Act and addresses specific aspects of the
   financial crisis concerning the uncertainty over the vulnerability of derivatives dealers to
   the failure of other dealers and the large derivatives exposure of major non-dealers in the
   market. Specifically, the Swap proposed rule requires some of the largest and most
   active participants in the derivatives market to collect margin for swap transactions that
   are not cleared through central counterparties. The Swap proposed rule was a joint
   rulemaking effort among the FDIC, OCC, FRB, FHFA, and Farm Credit Administration.

   Quantitative and qualitative methods used. In developing the Swap proposed rule,
   FDIC personnel reviewed various sources of economic information to better understand
   the derivatives industry for which the Dodd-Frank Act required the agency to adopt
   regulations imposing initial margin, variation margin, and capital requirements on dealers
   and major participants of covered derivatives. For example, economic information
   included the OCC Quarterly Report on Bank Derivatives Activities, and the International
   Swap Dealers Association (ISDA) Annual Margin Survey, which provides information
   about the use of collateral in the non-cleared derivatives business.

   In addition to reviewing public sources of economic information, in 2010, FRB staff,
   including staff from the New York Federal Reserve Bank, conducted a horizontal review
   of initial margin and variation margin practices among dealers. In and around
   August 2010, FRB staff shared a bullet-point summary of this horizontal review with
   FDIC staff and staff from the other banking agencies.

   In September and October 2010, staff from the FDIC and the other banking agencies
   developed a series of questions about the current derivatives market and the possible
   impact of proposed rule changes. These questions were posed to several dealers of
   derivatives that are likely to be covered by the SEC and CFTC regulatory definitions of
   “swap dealer” and “security-based swap dealer.” Responses to these questions were
   received in late November and early December 2010 and evaluated by staff of the FDIC
   and other banking agencies.

   Several aspects of the Swap proposed rule are intended to incorporate current market
   practices and therefore are not anticipated to impose additional incremental costs. For
   example, it was the understanding of FDIC officials that, under current practices, a bank
   that serves as a derivatives dealer to a commercial end user will not require the end user
   to post initial margin or variation margin if the underlying credit exposure is within the
   amount of unsecured credit that the bank had calculated as being consistent with safe and
   sound bank management. In establishing initial margin and variation margin
   requirements for transactions where the counterparty is a commercial end user, the FDIC
   generally intended to incorporate the current practice.

   Other aspects of the proposal, however, would require departure from current market
   practices in order to implement the statutory mandate to impose initial margin
   requirements. For instance, it was the FDIC staff’s understanding that, under current
                                            14
market practices, dealers and major participants do not require initial margin for
transactions with other similar counterparties. The FDIC staff did not believe it could
consider not imposing an initial margin requirement, given the statutory mandate to
impose such a requirement.

For several reasons, the FDIC did not consider existing economic information about the
current derivatives market to be relevant for evaluating the costs associated with the
initial margin and variation margin requirements. First, the banking agencies did not
propose to apply the Swap proposed rule retroactively—it would only be applied to
covered derivatives entered into after the effective date of the final rule. Thus, no initial
margin or variation margin requirements would apply to transactions entered into prior to
the final rule’s effective date. Second, the population of dealers and major participants to
which the proposed rule would apply is subject to definitions that are presently being
developed by the CFTC and SEC through rulemakings, and, as such, was unknown by
the banking agencies as they developed the proposed rule. Third, certain derivatives that
are currently not cleared may in the future be subject to the clearing requirement rather
than the margin requirements in the proposed rule.

Extent of consideration of alternative approaches. Alternative approaches were
proposed primarily in two main areas, namely initial margin and eligible collateral.
Specifically, the Swap proposed rule provides two options for the calculation of the initial
margin to be posted by covered swap entities and provides a limited range of the types of
collateral eligible to satisfy margin requirements. However, the preamble to the Swap
proposed rule indicates that alternative approaches may exist for many aspects of the
proposed rule and requests comments that identify and analyze those alternatives.

Extent of public input requested by the FDIC. The Swap proposed rule includes
requests for comment and over 90 questions that cover nearly every aspect of the
proposed rule. The comment period is open to the public for 45 days. The largest
proportion of comment requests and questions are focused on the initial margin aspect of
the Swap proposed rule. Specifically, the agencies requested assistance with identifying
the costs and benefits of, and alternative approaches for, the proposed initial margin
requirements. Additionally, according to the Policy Statement, those comments will be
made publicly available on the FDIC Web site and considered by the FDIC and the other
agencies as they determine the final rulemaking language. As noted earlier, the FDIC’s
Open Door Policy for Regulatory Rulemaking and written petition avenue are available to
individuals or entities with concerns about the rulemaking effort.

The transparency of the FDIC’s economic analysis. The preamble to the Swap
proposed rule states that assessing the quantitative impact of the proposed rule is difficult
because of the wide-ranging and undetermined changes that are occurring to the
derivatives market as a result of regulatory reform. The preamble goes on to list
uncertainty with respect to: (1) which entities would be classified as swap entities, (2) the
extent to which derivatives would be rolled over or renewed, and (3) the extent to which
derivatives currently traded in over-the-counter markets would shift to clearing through
central counterparties.



                                         15
        In addition to the preamble, the rulemaking was considered by the FDIC Board in an
        open meeting on April 12, 2011. The memorandum presented to the FDIC Board, a copy
        of the proposed rule, as well as a video of the Board proceedings with respect to the
        proposed rule are available on the FDIC public Web site. The FDIC Board video
        documents the rationale for the rulemaking and discusses some of the potential economic
        effects considered in the rulemaking.

     Risk-Based Capital Standards: Advanced Capital Adequacy Framework – Basel II;
     Establishment of a Risk-Based Capital Floor, 75 Fed. Reg. 250, 82317
     (December 30, 2010).

        Brief summary of rule and rulemaking efforts. The Risk-Based Capital proposed rule
        is an interagency effort among the FDIC, FRB, and OCC. The Risk-Based Capital
        proposed rule implements the requirements of section 171 of the Dodd-Frank Act (also
        known as the Collins Amendment). In the simplest terms, this proposed rule provides
        that the largest institutions will not have risk-based capital requirements that are less than
        the corresponding requirements for smaller institutions holding the same risk exposures.
        It does this by amending the Advanced Approaches Risk-Based Capital rule (Advanced
        Approaches rule)17 to require institutions subject to that rule to continue computing their
        capital requirements under both the Advanced Approaches rule and the agencies’ general
        risk-based capital rules, with the general risk-based capital requirements acting as a floor
        for the Advanced Approach risk-based capital requirement.

        The Risk-Based Capital proposed rule amends the Advanced Approaches rule that the
        banking agencies published on December 7, 2007 that required certain large institutions
        to transition to capital rules established by the Basel Committee on Banking Supervision.
        The Advanced Approaches rule provides that after completing a “parallel run” to the
        satisfaction of supervisors, institutions enter a sequence of three “transitional floor
        periods” where their risk-based capital requirements would be permitted to drop below
        those of smaller insured institutions by progressively larger amounts. After the
        transitional floor periods, the Advanced Approaches rule allowed for the removal of
        floors on risk-based capital requirements for these large institutions. At the present time,
        no large institution has exited its parallel run and entered a transitional floor period.
        Therefore, all institutions, including those subject to the Advanced Approaches rule, are
        subject to the agencies’ general risk-based capital requirements.

        Quantitative and qualitative methods used. As described above, the Risk-Based
        Capital proposed rule did not make any change to the risk-based capital floor that applies
        to all financial institutions today, but merely eliminated the potential for future reductions
        in risk-based capital requirements to levels less than those applying to smaller banks. In
        implementing the Advanced Approaches rule, the FDIC conducted analysis and
        determined that the Advanced Approaches rule would apply to 15 to 20 large financial
        institutions. The FDIC determined that since the Risk-Based Capital proposed rule
        implementing the Collins Amendment did not change the way the 15 to 20 banks
        currently compute or comply with their risk-based capital requirements, the Risk-Based

17
  Risk-Based Capital Standards: Advanced Capital Adequacy Framework – Basel II; Final Rule 72 Fed. Reg. 235,
69288 (December 7, 2007).

                                                     16
       Capital proposed rule would not require any additional capital and would be unlikely to
       have broad economic effects. As mentioned above, to comply with the RFA, the FDIC
       reviewed Call Report data and concluded that the proposed rule will not result in a
       significant economic impact on a substantial number of entities. Further, the Risk-Based
       Capital proposed rule did not fall within the PRA because it did not have an impact on
       reporting frequency or response time because current reporting requirements stay the
       same before and after implementation of the proposed rule.

       Extent of consideration of alternative approaches. Section 171 of the Dodd-Frank Act
       requires that agencies set a capital floor that is no less than the existing capital floor.
       FDIC personnel told us that they implemented the language of section 171 as written and
       did not view alternatives as being consistent with the legislative intent of the Collins
       Amendment.

       Extent of public input requested by the FDIC. The Risk-Based Capital proposed rule
       requests comment on five issues, and three of the five issues concern economic analysis
       with respect to the impact of the change and cost benefit analysis in case there are issues
       that the FDIC did not consider. Additionally, according to the Policy Statement, those
       comments will be made publicly available on the FDIC Web site and considered by the
       FDIC and the other agencies as they determine the final rulemaking language. As noted
       earlier, the FDIC’s Open Door Policy for Regulatory Rulemaking and written petition
       avenue are available to individuals or entities with concerns about the rulemaking effort.

       The transparency of the FDIC’s economic analysis. The Risk-Based Capital proposed
       rule preamble describes the fact that the net effect of the proposed rule is that large
       financial institutions will maintain their current regulatory capital floor. In addition to the
       preamble, the proposed rule was considered by the FDIC Board in an open meeting on
       December 14, 2010. The memorandum presented to the FDIC Board, a copy of the
       proposed rule, and a video of the Board proceedings with respect to the proposed rule are
       available on the FDIC public Web site.

Comparison of Executive Orders 13563 and 12866 and OMB Guidance to the FDIC’s
Approach

As mentioned previously, the Dodd-Frank Act does not impose additional procedures,
requirements, and controls to guide and oversee the rulemaking process for agencies other than
those involved in each agency’s standard rulemaking authority. As an independent agency, the
FDIC is not subject to Executive Orders 13563 and 12866 or OMB Circular A-4. Instead, the
FDIC is subject to certain statutes and FDIC policies that establish the basic principles that guide
the FDIC in its economic analysis of rulemakings.




                                                 17
As requested, we compared the economic analysis requirements of Executive Orders 13563 and
12866 and OMB Circular A-4 (which provides guidance for regulatory analysis under Executive
Order 12866) to the approach taken by the FDIC. The executive orders set forth the general
principles of Federal regulation and require that agencies subject to the executive orders prepare
a regulatory analysis for economically significant regulatory actions.18 In broad terms, the
executive orders require that agencies subject to their provisions:

•    Propose or adopt a regulation only upon a reasoned determination that its benefits justify its
     costs.
•    Design its regulations in the most cost-effective manner to achieve the regulatory objective.
•    In choosing among alternative regulatory approaches, select those approaches that maximize
     net benefits (including potential economic, environmental, public health and safety, and other
     advantages; distributive impacts; and equity) unless a statute requires another regulatory
     approach.
•    Identify and assess alternative forms of regulation and, to the extent feasible, specify
     performance objectives rather than specifying the behavior or manner of compliance that
     regulated entities must adopt.
•    Identify and assess available alternatives to direct regulation, including providing economic
     incentives or providing information upon which choices can be made by the public.

Section 69(a)(3)(c) of Executive Order 12866 requires, for significant regulatory action, the
agency to provide to OMB an assessment of:

•    the underlying analysis of benefits anticipated from the regulatory action and, to the extent
     feasible, a quantification of those benefits;
•    the underlying analysis of costs anticipated from the regulatory action and, to the extent
     feasible, a quantification of those costs; and
•    potentially effective and reasonably feasible alternatives to the planned regulation and an
     explanation of why the planned regulatory action is preferable.

As discussed in OMB Circular A-4, the regulatory analysis required by the executive orders
provides a formal way of anticipating and evaluating the likely consequences of a rule by
organizing evidence on the key effects of the various alternatives that should be considered in
developing a regulation. The general motivation is to learn whether the benefits of an action are
likely to justify the costs or discover which of various possible alternatives would be most cost-
effective.

We found that the broad principles guiding economic analysis of the executive orders and
Circular A-4 were generally incorporated into the Policy Statement, the FDIC Paper, and the
analysis performed by FDIC personnel with respect to the three proposed rules discussed above.
For example, the Policy Statement provides that the FDIC is committed to continually improving
the quality of its regulations and policies, to minimizing regulatory burdens on the public and the
banking industry, and generally to ensuring that its regulations and policies achieve legislative
18
  Among other things, Executive Order 12866 defines significant regulatory action as one that is likely to result in a
rule that may have an annual effect on the economy of $100 million or more or adversely affect in a material way
the economy, a sector of the economy, productivity, competition, jobs, the environment, public health or safety, or
State, local, or tribal governments or communities.

                                                         18
goals effectively and efficiently. The Policy Statement presents the following principles to guide
the FDIC in its development of regulations and written policies:

•   Burdens imposed on the banking industry and the public should be minimized. This involves
    (1) considering the impact of new regulations with respect to new reporting requirements, the
    impact on competition, and the impact on small institutions and whether there are workable
    alternatives, and (2) weighing the potential benefits associated with the regulation or
    statement of policy against the potential costs.
•   Regulations and policies should be clearly and understandably written.
•   The public should have a meaningful opportunity to participate in the rulemaking process.
    This involves ensuring that the Board gives careful consideration to the impact of its actions
    as public policy, and that all rulemaking is carried out in accordance with the APA.
•   Common statutory and supervisory requirements should be implemented by the Federal
    financial institution regulators in a uniform way.
•   Regulations and statements of policy should be reviewed periodically. This involves
    considering the continued need for the regulation or policy, opportunities to simplify or
    clarify regulation or policy, and the need to eliminate duplicative or inconsistent regulations
    and policies.

FDIC Consideration of the Cumulative Burden of All Dodd-Frank Act Rulemakings on
Market Participants and the Economy

The FDIC is considering the cumulative burden of all Dodd-Frank Act rulemakings. In the
FDIC Board minutes for the three rulemaking efforts, we noted comments by FDIC Board
members noting their consideration of the cumulative effect of Dodd-Frank Act rulemakings.
Legal Division and RMS officials we interviewed also expressed that they were alert to the
cumulative impact of rulemaking as they prepared their respective rules. In this regard, the
FDIC is working on a number of efforts to establish clear rules under the Dodd-Frank Act that
will ensure financial stability while implementing those rules in a targeted manner to avoid
unnecessary regulatory burden. These efforts include:

•   A broad-based Dodd-Frank Act working group that includes the Chairman and FDIC
    executives that discusses and evaluates the interrelationship of all Dodd-Frank Act
    rulemakings as well as the impact the rulemakings would have on existing FDIC rules. For
    example, the FDIC is trying to rely as much as possible on the current regulatory reporting
    structure in implementing new rules under the Dodd-Frank Act.

•   The FDIC’s Advisory Committee on Community Banking that is working on ideas to ease
    the regulatory burden on small institutions. In this regard, the FDIC developed a short paper
    entitled, Impact of the Dodd-Frank Act on Community Banks, that details how various
    aspects of the Dodd-Frank Act provisions may benefit community banks.




                                                19
•    Establishment of an FDIC Corporate Performance Goal to modify Financial Institution
     Letters used to alert banks of any regulatory changes or guidance so that such letters will
     include a section making clear the applicability to smaller institutions (under $1 billion).19

•    The FDIC plans to review all recurring questionnaires and information requests to the
     industry and to develop recommendations to improve the efficiency and ease of use and to
     develop an action plan to implement these changes.

•    A review of industry reporting requirements to identify areas for streamlining. Further, as
     part of every risk management examination, the FDIC will solicit the views of the institution
     on aspects of the regulatory and supervisory process that may be adversely affecting credit
     availability.

•    The FDIC’s continued participation in the Federal Financial Institutions Examination
     Council (FFIEC),20 which sponsors interagency efforts and establishes interagency working
     groups and task forces to establish consistent rules and supervisory approaches among the
     banking agencies.

•    The Economic Growth and Regulatory Paperwork Reduction Act of 1996 requirement that
     the banking agencies, including the FDIC, review their regulations at least once every
     10 years to identify any outdated, unnecessary or unduly burdensome regulatory
     requirements imposed on insured depository institutions.


MANAGEMENT RESPONSE

We provided a draft of this report to the FDIC on June 6, 2011. The FDIC provided technical
accuracy comments in response to the draft report, and we made changes to the report where
appropriate. The FDIC Chairman’s office advised us that the Chairman had no other comments.
The FDIC was not required to provide a written response because the report contained no
recommendations.




19
   Corporate Performance Goals include specific performance targets and measures that are approved by the FDIC
Chairman and monitored through quarterly performance reports to the Chief Operating Officer and Chief Financial
Officer.
20
   The FFIEC is a formal interagency body empowered to prescribe uniform principles, standards, and report forms
for the federal examination of financial institutions by the FRB, FDIC, OCC, Office of Thrift Supervision, and the
National Credit Union Administration, and to make recommendations to promote uniformity in the supervision of
financial institutions.

                                                        20
                                                                                      Appendix I


                       OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our evaluation was to address the Members’ May 4, 2011 letter concerning
Dodd-Frank Act rulemaking.

Specifically, we determined:

•   FDIC statutory, regulatory, and procedural rulemaking requirements.
•   Internal policies, procedures, and guidance used to ensure rigor and consistency in the
    economic analysis of proposed rules.
•   Whether the FDIC performs any discretionary economic analysis that the FDIC undertakes
    voluntarily or on an ad hoc basis to ensure efficient and effective rulemaking.
•   Key FDIC staff involved in the three rulemaking efforts and their respective qualifications.
•   Quantitative and qualitative analysis performed by the FDIC with respect to the three
    rulemaking efforts.
•   Alternatives evaluated by the FDIC with respect to the three rulemaking efforts.
•   Transparency of economic analysis performed by the FDIC with respect to the three
    rulemaking efforts.
•   FDIC economic analysis requirements and those of Executive Orders 13569 and 12866 and
    OMB Circular A-4.
•   How the FDIC is considering the cumulative burden of all Dodd-Frank rulemaking.

We interviewed FDIC staff from the Legal Division responsible for tracking all Dodd-Frank Act
rulemakings as well as lead counsel for the three rulemakings. We also interviewed the three
lead rulemaking subject matter experts from the Division of Risk Management Supervision.

Additionally, we reviewed the:

•   FDIC Dodd-Frank Act Implementation Tracking Chart.
•   FDIC Board minutes, memoranda, and resolutions for the three rulemaking efforts.
•   Statement of Policy on the Development and Review of FDIC Regulations and Policies, No.
    5157 (1998).
•   Paper on the Development and Review of FDIC Rules and Statements of Policy
    (December 19, 2006).
•   Executive Order 13563, Improving Regulation and Regulatory Review (January 18, 2011).
•   Executive Order 12866, Regulatory Planning and Review, (October 4, 1993).
•   OMB Circular A-4, Regulatory Analysis, (September 17, 2003).
•   Economic analysis documentation provided by the FDIC for each rulemaking.
•   FDIC 2011 Corporate Goals.

We performed our evaluation during May and June 2011 in accordance with the Council of
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.




                                               21
